TOP MANAGEMENT CHALLENGES

    Department of Transportation


     Report Number: PT-2003-012

    Date Issued: January 21, 2003
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT’s Top Management Challenges                  Date:    January 21, 2003
           PT-2003-012

  From:    Kenneth M. Mead                                       Reply to
                                                                 Attn. of:   J-1
           Inspector General
    To:    The Secretary
           Thru: The Deputy Secretary

           The past year has been one of significant challenge and change for the Department
           of Transportation (DOT) and indeed the Nation. It is already clear that 2003 will
           continue that trend. DOT faces significant challenges in the missions for which it
           was created and in smoothly transitioning the Coast Guard and the Transportation
           Security Administration to the new Department of Homeland Security. Most
           items on our 2003 list of top management challenges directly relate to DOT’s
           ongoing missions; the last two items are relevant to DOT during the transition and
           will then move to the Department of Homeland Security.
           • Accomplishing DOT’s Core Missions of Safety and Mobility During and
             After an Effective Transition of TSA and Coast Guard (page 4)
           • Reducing Fatalities and Injuries on Our Highways, Emphasizing Seat Belt
             Law Enforcement (page 8)
           • Reducing the Risk of Aviation Accidents Due to Operational Errors and
             Runway Incursions (page 11)
           • Reversing FAA’s Spiraling Operating Costs, Improving Aviation System
             Capacity, and Reauthorizing AIR-21 (page 13)
           • Clamping Down on Fraud, Obtaining Better Value in Highway and
             Bridge Investments, and Reauthorizing TEA-21 (page 19)
           • Determining the Future of Intercity Passenger Rail (page 23)
           • Ensuring Highway Safety as the Southern Border Is Opened to Mexican
             Motor Carriers Under NAFTA (page 27)
           • Strengthening Computer Security and Investment Controls for DOT’s
             Multi-Billion Dollar Information Technology Investment (page 29)
           • Continuing to Improve Transportation Security (page 33)
           • Meeting Coast Guard’s Safety and Security Missions (page 37)
                                                                                    2


The Financial Challenges. Reflecting on the coming year, a few things are
already clear. It is becoming increasingly important for each agency to operate
effectively and efficiently to ensure we get the most benefit for each taxpayer
dollar spent. Trust fund revenues are lower than expected, increasing the calls for
additional financial support from General Fund resources. For example, over the
next 6 years the estimated tax revenues in the Aviation Trust Fund are expected to
be about 19 percent lower than was anticipated before September 11, 2001. At the
same time, however, the economic forces and the demands of national security
have combined to limit the General Fund’s ability to supplement and sustain
transportation spending. In the decision making process, the Government must
take into consideration the financial effects of creating a new agency, continuing
the war on terrorism, and growing defense outlays necessary to protect the
Nation’s interests at home and abroad.

The Performance Challenges. With respect to DOT specifically, forces set in
motion by the September 11, 2001 terrorist attacks necessarily turned much of the
Department’s attention to security issues and have now resulted in the
establishment of the Department of Homeland Security—the largest
reorganization of the Federal Government in over 50 years. DOT will need to
effectively transfer the Transportation Security Administration and the Coast
Guard to that new agency, while finding ways to work effectively with the
Department of Homeland Security on DOT’s continuing supportive role in
transportation security and the overlapping responsibilities for transportation
safety and security.

As much of the security focus moves to the new Department—and with
three major reauthorizations pending (the Aviation Investment and Reform Act for
the 21st Century, the Transportation Equity Act for the 21st Century, and intercity
passenger rail)—the Department has an important opportunity to renew its focus
on the management of its safety and mobility missions. The Department’s success
will be critical to the effective functioning of transportation, which is an important
economic engine that comprises almost 11 percent of the economy’s gross
domestic product. In view of the magnitude and importance of this effort, it is the
first item on our list of DOT’s top management challenges.

Our list also covers the other major challenges facing DOT in 2003; these include
implementing the President’s Management Agenda (parts of which are woven into
several of our management challenges). In addition, DOT’s challenges in 2003
will include the reauthorization of the Aviation Investment and Reform Act for the
21st Century, reauthorization of the Transportation Equity Act for the 21st Century,
and determination of how best to structure and fund an intercity passenger rail
system.
                                                                                    3


Changes From Last Year’s List. With respect to the airline industry, the
airline economic environment is in great upheaval, with two major carriers in
bankruptcy reorganization and the other network carriers working to reorganize
their operations to avoid similar fates. We are not listing this as a top management
issue because airline competition has been generally left to the discipline of
market forces since airline price and service deregulation. Nevertheless, the
Department clearly does need to closely monitor developments so as to be
prepared to recommend national policy changes should private market efforts fail,
threatening large segments of the domestic airline industry and air service to small
communities. We note as well that the Department continues to have ongoing
responsibilities for international competition and for monitoring the domestic
competitive environment for evidence of anti-competitive behavior.

We are also no longer listing the Maritime Administration’s (MARAD) Ship
Disposal Program because, while further action is needed, sufficient progress has
been made to warrant removal from the list of the Department’s top management
issues. MARAD has succeeded in removing 14 vessels from its Fleets since 2000,
and it obtained additional funding for disposal efforts in fiscal year 2003. The
State of Virginia and MARAD are working on the common goal to mitigate the
environmental threat these vessels pose in the James River Reserve Fleet. Also, in
its Report to Congress on the Progress of the Vessel Disposal Program (June
2002), MARAD itself cited Program accomplishments, including: (1) posting of
an acquisition announcement seeking innovative solutions for vessel disposal,
(2) proposing legislation to promote greater use of these vessels as artificial reefs,
(3) ongoing negotiations with the Environmental Protection Agency on exporting
some vessels, and (4) various partnership initiatives.              Despite these
accomplishments, the Department needs to continue to monitor the Program’s
progress and ensure adequate funding is provided for disposal efforts.

Our top management challenges for 2003 are detailed below, and the Exhibit
provides a comparison of this year’s list with the items from our 2002 list. In
presenting this list, we recognize that the Department will face many other
significant issues in the coming year. The absence of a particular issue from this
list is not intended to suggest that it is unimportant to the Department, but rather
that we do not consider it among the key challenges at this time.
                                                                               4




Accomplishing DOT’s Core Missions of Safety and
Mobility During and After an Effective Transition of
TSA and Coast Guard
In the aftermath of the September 11th attacks and with the creation of the
Transportation Security Administration (TSA), the last 16 months have presented
DOT with unprecedented challenges—including hiring nearly 62,000 screeners to
check passengers and carry-on baggage at all airports and implementing
explosives detection equipment at the majority of airports nationwide. At the
same time, TSA significantly expanded the Federal Air Marshals program with
more flights being guarded now than any time in history. Meeting these
challenges was, understandably and necessarily, the top priority of the
Department’s senior managers.

With the March 2003 transfer of the Coast Guard and TSA to the newly created
Department of Homeland Security, the coming year presents DOT with the
opportunity to focus on challenges central to the Department’s core missions of
improving transportation safety and mobility. Further, as the Department will
continue to have a supporting role in transportation security, DOT must also use
the next year to establish an effective relationship with the new Department of
Homeland Security. The Department should also take full advantage of this
opportunity for management renewal by following through on major DOT
management initiatives, including the development of effective financial and cost
accounting systems that will enable the Department to better track and manage its
performance and budget.

In managing its core missions, both during and after the Coast Guard and TSA
transition to the Department of Homeland Security, DOT managers will need to
place priority on:

   a. Focusing on Safety and Mobility in All Modes of Transportation.
      This time of transition presents DOT with a broader opportunity to once
      again focus on effective management of its core safety and mobility
      missions. DOT will need to work with Congress on the reauthorizations of
      its major programs, including the Aviation Investment and Reform Act for
      the 21st Century (AIR-21), the Transportation Equity Act for the
      21st Century (TEA-21), and intercity passenger rail. DOT’s programs are a
      substantial and visible part of the services the public receives from the
      Federal Government. The President’s Budget Request for DOT in
                                                                                                                    5


           Fiscal Year (FY) 20031 was $59.3 billion; $47.4 billion of that will remain
           with DOT once TSA and the Coast Guard have been transferred to the
           Department of Homeland Security. DOT’s impact goes beyond that,
           however, as its safety and mobility missions are critical to the
           transportation industry—an important economic engine that comprises
           almost 11 percent of the gross domestic product and impacts the entire
           gross domestic product.

      b. Establishing an Effective Framework for Working With the
         Transportation Industry and Homeland Security on Regulatory
         and Programmatic Security Issues.                     DOT’s continuing
         responsibilities for transportation safety and efficiency will inevitably
         overlap with the Department of Homeland Security’s responsibilities for
         transportation security, requiring close interaction between the
         two Departments to strike an appropriate balance in implementing,
         regulating, funding, and overseeing programs that benefit the traveling
         public. DOT will play a continuing and supportive role in transportation
         security, including primary responsibility over the safe transport of
         hazardous materials, which will require ongoing coordination with the
         Department of Homeland Security.

      c. Following Through on Major DOT Management Initiatives,
         Including Full Implementation of the New Delphi Accounting
         System and Managerial Cost Accounting Standards. The Delphi
         system, which was initiated in 1997, is now operational in seven of DOT’s
         smaller Operating Administrations and staff offices.2 Delphi has not yet
         been implemented in four of DOT’s largest Operating Administrations
         (Federal Aviation Administration, Federal Highway Administration,
         Federal Motor Carrier Safety Administration, and Maritime
         Administration), which account for more than 80 percent of DOT’s
         FY 2003 budget (not including TSA and Coast Guard) and represent most
         of the volume of transactions anticipated for Delphi operations.

           Bringing the four larger and more complex Operating Administrations onto
           Delphi has proven to be a challenge, as evidenced by the repeated schedule
           slippages.    They were scheduled to begin using Delphi between

1
    At the time this Top Management Challenges report was prepared, DOT’s FY 2003 budget had not been finalized.
    FY 2003 budget figures shown in this report are based on FY 2003 Budget in Brief, Office of the Secretary of
    Transportation publication, dated February 4, 2002, unless otherwise noted.
2
    The seven Operating Administrations/Offices operating on Delphi are the Federal Transit Administration, Federal
    Railroad Administration, National Highway Traffic Safety Administration, Research and Special Programs
    Administration, Bureau of Transportation Statistics, Surface Transportation Board, and the Office of the Secretary
    (including the Office of Inspector General and the Transportation Administrative Service Center).
                                                                            6


December 2002 and May 2003. However, that effort has again slipped to
the March through October 2003 timeframe, with a total implementation
cost of about $103 million.

Delphi should provide DOT with reliable automated financial data for the
first time. However, to support the President’s Management Agenda goal
of integrated budget and performance data, DOT also needs to implement
managerial cost accounting standards and labor distribution systems that
interface with Delphi. The ultimate goal is to provide reliable cost and
performance data that will tell decision makers what programs really cost
and what they are achieving for that cost. DOT plans to implement
managerial cost accounting standards in all Operating Administrations by
September 2004.

The Federal Aviation Administration (FAA), which is DOT’s largest
Operating Administration, planned to have a fully operational cost
accounting system including a labor distribution system called Cru-X to
capture labor hours and costs associated with specific functions and
services by September 30, 2002. However, Cru-X for FAA’s air traffic
controllers, with annual labor costs of about $3.1 billion, omitted important
internal controls related to the controllers signing in and signing out for
their work shifts and for recording time while not directing air traffic.

We brought this issue to the attention of the new FAA Administrator, and
she directed that appropriate internal controls for recording of air traffic
controllers’ time be incorporated into the Cru-X labor distribution system.
FAA needs to identify specific action plans to implement the
Administrator’s direction and provide milestones for starting and
completing its corrective actions.

Without a fully functioning labor distribution system, FAA will not have a
credible cost accounting system, nor will it be able to credibly claim it is a
performance-based organization. To date, FAA has spent $38 million and
is 5 years behind its original schedule for having a fully operational cost
accounting system. The Federal Aviation Reauthorization Act of 1996
required FAA to develop a cost accounting system. FAA plans to have an
operational cost accounting and labor distribution system by September
2003 unless the implementation schedule slips again.
                                                                           7


For further information, the following reports can be seen on the
management challenges page of the Office of Inspector General (OIG)
web site, at http://www.oig.dot.gov/challenges:
  • FAA Financial Statements for Fiscal Years 2001 and 2000
  • DOT Consolidated Financial Statements for Fiscal Years 2001 and 2000
  • FAA Cost Accounting System and Practices–2001 Status Assessment
  • FAA Air Traffic Services Planned Labor Distribution Reporting
  • DOT Implementing a New Financial Management System
                                                                                                                                      8




Reducing Fatalities and Injuries on Our Highways,
Emphasizing Seat Belt Law Enforcement
In 2001, more than 42,000 people were killed and more than 3 million injured in
traffic crashes on the Nation’s highways. As shown in Figure 1, DOT has
established a goal of reducing traffic fatalities to 1 per 100 million vehicle miles
traveled by 2008. To achieve this
goal, DOT needs to pursue the               Figure 1. Highway Fatalities Per
following ongoing efforts to reduce        100 Million Vehicle Miles Traveled
deaths and injuries on the Nation’s
highways, in addition to continuing       1.8
the fight against driving while under
the influence of alcohol or drugs.        1.6 1.7
                                                              1.6                                1.4
   a. Increase Seat Belt Use.           1.4                    1.5
                                                                        1.3
      The      National    Highway
                                                                            1.2
      Traffic Safety Administration     1.2
                                                                                1.1
      (NHTSA) estimates that
                                                                                        1.0
      raising seat belt use to            1
      85 percent from the present
                                                1995
                                                       1996
                                                              1997
                                                                     1998
                                                                            1999
                                                                                   2000
                                                                                          2001
                                                                                                 2002
                                                                                                        2003
                                                                                                               2004
                                                                                                                      2005
                                                                                                                             2006
                                                                                                                                    2007
                                                                                                                                           2008
      rate of 75 percent would save
      4,600 lives annually. The                 Actual Fatality Rate Target Fatality Rate
      most effective means of
      increasing seat belt use is enactment and enforcement of primary seat belt
      laws, which allow police to stop drivers and issue citations solely for not
      using a seat belt.

      Currently, 18 states, the District of Columbia, and Puerto Rico have
      primary seat belt laws. We see no credible basis to forecast increases in
      seat belt use in excess of the recent trend of 1 percentage point per year
      unless additional states enact and enforce primary enforcement laws. If the
      trend in seat belt use of the last 9 years continues, as shown in Figure 2,
      NHTSA will fall short of its 2003 goal of 78 percent.
                                                                                                                                                                                        9



                                               Figure 2. National Seat Belt Use
                                                         1984 to 2002
                                            100%




              National Seat Belt Use Rate
                                            80%                                                                                                                           73% 75%
                                                                                                                                              69% 70% 67% 71%
                                                                                                                  66% 67% 68% 68%
                                                                                                           62%
                                                                                                    59%
                                            60%
                                                                                             49%
                                                                               45% 46%
                                                                        42%
                                                                 37%
                                            40%

                                                          21%
                                            20% 14%


                                             0%
                                                   1984

                                                          1985

                                                                 1986

                                                                        1987

                                                                               1988

                                                                                      1989

                                                                                             1990

                                                                                                    1991

                                                                                                           1992

                                                                                                                  1993

                                                                                                                         1994

                                                                                                                                1995

                                                                                                                                       1996

                                                                                                                                              1997

                                                                                                                                                     1998

                                                                                                                                                            1999

                                                                                                                                                                   2000

                                                                                                                                                                          2001

                                                                                                                                                                                 2002
b. Improve the Credibility and Integrity of the Commercial Driver’s
   License (CDL) Program. In our May 2002 report, we stated existing
   Federal standards and state controls were not sufficient to defend against
   the alarming threat posed by individuals who seek to fraudulently obtain
   CDLs. For example, we found that only 4 of 13 states that we visited had
   laws requiring applicants to demonstrate that they are citizens or legally
   present in the United States. Since 1998, we have conducted over
   70 criminal investigations in 12 states involving CDLs. To date, these
   cases have resulted in 81 indictments, 63 convictions, and over $480,000 in
   fines, restitution and other monetary recoveries. In addition, hundreds of
   truckers have had their licenses suspended or revoked, or have had to be
   retested in order to ensure that they were qualified to drive commercial
   vehicles.

   As a consequence of the fraudulent testing and licensing of commercial
   drivers, highway safety has been compromised and states have incurred
   additional expense to retest thousands of commercial drivers as a result of
   state and Federal investigations. DOT needs to counter fraudulent licensing
   by strengthening and clarifying Federal standards for issuing CDLs and by
   requiring the states to make use of covert procedures in the monitoring of
   driver examiners.

c. Continue Implementation of the Transportation Recall
   Enhancement, Accountability, and Documentation (TREAD) Act.
   Over the past 2 years, NHTSA has made substantial progress in meeting the
   TREAD Act requirements, completing 10 of 15 final rulemakings. Several
                                                                            10


     rules were complex and controversial, such as requiring a tire pressure
     warning device in new vehicles, updating existing tire standards, and
     establishing early warning reporting requirements for vehicle and
     equipment manufacturers.       Of the five remaining rulemakings, the
     two regarding the safety of child restraints and updating existing tire
     standards appear to be controversial from the comments received on the
     proposed rules. Neither of these rules has met its statutory deadline.

     The success of the TREAD Act also depends on the quality and usefulness
     of a new information system being developed to track vehicle defects and
     help identify trends. This system is currently scheduled for completion in
     March 2003. Manufacturers must begin reporting additional warning data
     for entry into this new system by August 31, 2003. The Office of Inspector
     General recently initiated an audit to evaluate the progress NHTSA has
     made in implementing recommendations from our January 2002 report.




For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
  • Review of NHTSA’s Progress in Implementing Strategies to Increase the
    Use of Seat Belts
  • Improving the Testing and Licensing of Commercial Drivers
  • Progress and Challenges in Implementing the TREAD Act
  • NHTSA Office of Defects Investigation
  • Disqualifying Commercial Drivers
                                                                                                             11



Reducing the Risk of Aviation Accidents Due to
Operational Errors and Runway Incursions
Overall, this has been a very safe year for the aviation industry. There has been
only one fatal commercial aviation accident in the United States during the last
14 months, and FAA has made further progress in reducing the risk of aviation
accidents due to operational errors and runway incursions. Operational errors
(incidents that could result in collisions in the air) and runway incursions
(incidents that could result in collisions on the ground) decreased by 11 percent
and 17 percent, respectively, over FY 2001 levels. While reduced air traffic
operations contributed to a reduction of these incidents, FAA initiatives to reduce
operational errors and runway incursions at specific facilities were also
contributing factors.

Notwithstanding these improvements, operational errors and runway incursions
remain on our list of top management challenges because (1) at least three serious
operational errors and one serious runway incursion occurs, on average, every
10 days (in which collisions were barely averted); and (2) FAA now projects that
air traffic, measured in terms of operations, will return to its pre-September 11th
growth pattern between 2005 and 2007. FAA needs to continue initiatives to
further reduce the risk of aviation accidents by:

   a. Reducing the Number of Operational Errors. The number of
      operational errors was
      down from an all-time                   Figure 3. Operational Errors
      high of almost 1,200 in                            FY 1998—FY 2002
      FY 2001 to 1,061 in
      FY 2002, as shown in                                                                                       Rate*

      Figure 3. FAA initiatives FY 1998                                                885                        5.6
      to reduce operational FY 1999                        Goal 816                           941                 5.7
      errors included issuing FY 2000                        Goal 829                                1,145        6.8
      guidance     to    improve FY 2001                    Goal 812                                  1,194       7.4
      regional operational error # FY 2002                                                            1,061       6.7
      reduction     plans,   and
                                                0      200 400 600 800 1,000 1,200 1,400
      establishing a system to
                                   # FAA missed its FY 2002 goal of no more than 568 operatio nal errors with less
      rate the severity of           than 80 percent of required separation by 7 percent, with 607 such erro rs.
      operational errors so FAA * Rate is per 1 million air traffic operatio ns.
      can focus resources on
      reducing the most serious errors. However, some operational errors still
      pose a significant safety risk, with an average of three operational errors
      per day and one serious error every 3 days (in which a collision was barely
      averted). To reduce operational errors further, FAA needs to ensure that air
                                                                                                       12


      traffic controllers who make operational errors receive training. FAA also
      needs to reexamine its new severity rating system to ensure that it
      accurately reflects the safety risk of operational errors.

  b. Reducing Runway Incursions. Runway incursions declined from
     407 in FY 2001 to 338 in FY 2002 (see Figure 4), due in part to FAA’s
     aggressive actions to reduce these incidents. FAA established a system to
     categorize runway incursions by severity risk and has reduced the number
     of close calls (those runway
     incursions in the two highest             Figure 4. Runway Incursions
     categories) from 53 in                                FY 1998—FY 2002
     FY 2001 to 37 in FY 2002.                                                                        Rate*
     However, there is still an
     average      of    one runway        FY 1998                                    304               4.7
     incursion per day and an
     average of one close call            FY 1999                                      329              4.8

     every 10 days. In view of the
     potential loss of life in a          FY 2000                                             405      5.9

     runway accident, this is still                                243
                                          FY 2001
     too many. For example, in                                                              407        6.2

     October 2001, a runway             # FY 2002                                      338              5.2
     accident        between      a
     commercial aircraft and a             -100               100               300           500
     business jet killed 118 people    # FA A met its go al o f no mo re than 53 serio us runway incursio ns

     in Milan, Italy. While this         by 30 percent, with 37 such incursio ns.
                                       * Rate is per 1 millio n to wer o peratio ns.
     accident occurred outside the
     United States, the potential
     exists for similar accidents to occur here. To reduce runway incursions
     further, FAA needs to follow through on its plans to train pilots to avoid
     runway incursions and use technology to warn pilots and controllers of
     potential incidents.

For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
   • FAA’s FY 2003 Budget Request
   • Despite Significant Management Focus, Further Actions Are Needed to
       Reduce Runway Incursions
   • Further Actions Are Needed to Reduce Runway Incursions
   • Actions to Reduce Operational Errors and Deviations Have Not Been
       Effective
   • FAA’s Actions to Expand the Controller-in-Charge Program
                                                                                              13




Reversing FAA’s Spiraling Operating Costs,
Improving Aviation System Capacity, and
Reauthorizing AIR-21
FAA is facing critical issues this year involving increasing capacity in the National
Airspace System, carrying out cost-effective and timely acquisitions, and
improving business operations by controlling costs. In our view, FAA needs to act
more like a business, in the
sense that it pays much            Figure 5. Aviation Trust Fund: Estimated
greater      attention     to                          Tax Revenues
cost-effectiveness        and                               ($ in billions)
controlling      its   costs,
particularly in view of the          $20.0
                                                                                            $15.8
steep declines in projected                                               $14.1   $14.9
                                     $15.0                      $13.3                           $12.8
Aviation      Trust     Fund                $11.9     $12.6
                                                         $10.2      $10.9    $11.5    $12.2
revenues compared to pre-            $10.0       $9.4

September 11,           2001
                                      $5.0
estimates, as shown in
Figure 5.                             $0.0
                                                    FY      FY      FY      FY      FY       FY
Within this context, a                  2003   2004   2005   2006  2007  2008
combination                of
management and legislative                Pre-September 11 Post-September 11
actions       are     needed.
Reauthorization of AIR-21
provides FAA with an opportunity to seek needed legislative changes. The most
critical actions include:

    a. Containing Inordinate Increases in Operating Costs That Are
       Due to “Personnel Reform,” and Tightening Accountability for
       Performance Agency-Wide. FAA’s budget has increased $5 billion
       over the past 6 years—escalating from $9.0 billion in FY 1998 to
       $14 billion in FY 2003. This growth has largely been driven by inordinate
       increases in the agency’s operating costs. FAA’s Operations budget, which
       is 73 percent payroll costs, has increased from $5.3 billion in FY 1998 to
       $7.5 billion in FY 2003, an increase of over 41 percent (see Figure 6).

        While FAA has taken extensive advantage of the flexibilities provided by
        personnel reform by substantially increasing salaries, there has been little
        corresponding management accountability for costs. Containing the growth
                                                                                              14


in operating costs continues to be a top management challenge that FAA
must address.


                     Figure 6. FAA’s Operations Budget
                         FY 1998 through FY 2003
                                         ($ in billions)
                                                                             $7.5
              $8.0                                                $6.9
                                                        $6.6
                       $5.3       $5.6       $6.0
              $6.0

              $4.0

              $2.0

              $0.0
                     FY 1998    FY 1999 FY 2000       FY 2001 FY 2002      FY 2003

Note: FY 2002 figures exclude approximately $200 million in supplemental funds that were
appropriated specifically for security related purposes. FY 2003 figures include approximately
$400 million in retirement and healthcare costs, which are now included directly in all Federal
agencies’ budgets per Office of Management and Budget instructions.


A key tool FAA needs to effectively manage its costs is an accurate cost
accounting system. As part of its cost accounting system, FAA is
developing a labor distribution system, called Cru-X, which would account
for and distribute its air traffic controller labor costs of about $3.1 billion
annually to specific facilities and functions for FAA to better assess its
workload and performance. However, Cru-X for FAA’s air traffic
controllers omitted important internal controls related to controllers signing
in and signing out for their work shifts and for recording time while not
directing air traffic. As a result, the Cru-X system would provide no
assurance that the time worked by air traffic controllers would be accurately
recorded and properly paid.

We brought the Cru-X deficiency to the attention of the new
FAA Administrator and she directed that appropriate internal controls for
recording of air traffic controllers’ time be incorporated into the Cru-X
labor distribution system. FAA needs to identify specific action plans to
implement the Administrator’s direction and provide milestones for starting
and completing the corrective actions.
                                                                            15


   Lastly, FAA needs to become proactive in taking actions to offset costs.
   For example, FAA needs to ensure that future agreements with its
   workforces include quantified offsetting gains in productivity, and that
   managers use flexibilities of personnel reform judiciously in terms of
   employee salaries, bonuses, and awards.

   FAA also needs to take actions on existing opportunities that could help
   defray operating costs. For example, in our FY 2002 report on flight
   service stations, we reported that FAA could save at least $500 million over
   7 years by consolidating automated flight service stations in conjunction
   with deployment of new flight service software. In FY 2000, we reported
   that FAA could also save over $57 million annually by contracting out low-
   activity visual flight rule towers that are still operated by the agency.
   Actions such as these offer an important opportunity to follow through on
   one of the President’s Management Agenda goals for strategic management
   of human capital.

b. Reshaping Air Traffic Control (ATC) Into a Performance-Based
   Organization, in part by appointing a Chief Operating Officer and
   making meaningful use of the ATC Subcommittee, both of which were
   authorized by AIR-21 more than 2 years ago. The pending reauthorization
   of AIR-21 also affords the Congress and FAA with an opportunity to
   consider additional tools to enable better, more economical acquisitions and
   personnel systems for the ATC system. One very important tool is the
   development and operation of a cost accounting system, as required by the
   1996 Reauthorization of FAA, and an effective labor distribution system.
   Without such financial systems, FAA cannot credibly claim to be, nor
   function as, a performance-based organization.

c. Re-Baselining Costs and/or Milestones for Modernization
   Projects That Will Cost Much More Than Anticipated or That
   Have Had Substantial Schedule Slips. FAA spends almost $3 billion
   annually on modernization projects designed to improve the National
   Airspace System. Progress has been made with some acquisitions, most
   notably Free Flight Phase 1, but several major efforts need senior
   management level attention over the next year. These projects include the
   Standard Terminal Automation Replacement System (STARS), Local Area
   Augmentation System (LAAS), and Integrated Terminal Weather System
   (ITWS).

   • STARS has a long history of cost overruns and schedule delays. The
     original STARS program estimate was $940 million. In March 2002,
     after the full program estimate rose to $1.69 billion, FAA reduced the
                                                                           16


      approved program from 182 to 74 sites and reduced the estimated cost
      to $1.33 billion. Moreover, STARS is not FAA’s only terminal
      modernization program. For example, while waiting for STARS, FAA
      also moved forward with a “bridge” program known as Common
      ARTS. Common ARTS provides the functions that STARS will
      eventually have after STARS development is complete. Common
      ARTS has now replaced aging systems at more than 140 facilities. In
      total, since 1996, FAA has spent more than $1 billion on terminal
      modernization programs.

   • LAAS is a new precision approach and landing system that is expected
     to boost airport arrival rates under all weather conditions. FAA
     intended to have LAAS (Category I) operational in 2004. It is now
     clear that this milestone cannot be met because of additional
     development work, evolving requirements, and unresolved issues
     regarding how the new system will be certified as safe for pilots to use.
     Moreover, the more demanding Category II/III service (planned for
     2005) is now a research and development effort with an uncertain end
     date.

   • ITWS provides air traffic managers with enhanced weather information
     that does not require meteorological interpretation. FAA planned to
     complete deployment of the new weather system in 2004 at a cost of
     about $286 million. However, production costs are three times more
     expensive than planned, and FAA cannot execute the program as
     planned.

   FAA needs to develop metrics to assess progress with major acquisitions,
   strengthen contract oversight, make greater use of Defense Contract Audit
   Agency audits, and institute cost control mechanisms for software-intensive
   contracts. With schedule slips and cost overruns in major acquisitions, it
   should be noted that FAA is not getting as much for its $3 billion annual
   investment as it originally expected.

d. Addressing Future Capacity Issues while there is still time to avoid a
   repeat of the gridlock conditions prevalent in the summer of 2000. FAA
   needs to be strategically positioned—through a combination of new
   runways, better air traffic management technology, and greater use of non-
   hub airports—for when the demand for air travel rebounds. FAA needs to
   continue to make major modifications to the Operational Evolution Plan
   (FAA’s blueprint for increasing capacity over the next 10 years) to address
   changes in schedule and funding requirements in key programs and clarify
   anticipated benefits. In addition, FAA needs to address the uncertainty
                                                                               17


   regarding the airlines’ ability to purchase and install new technologies
   (estimated at $11 billion) called for in the Plan due to the decline in airline
   revenue since early 2001.

   It is generally accepted that new runways are the most effective way to
   increase capacity. In the 10 years prior to the FAA’s Operational Evolution
   Plan, six new runways had been completed, including new runways at
   Dallas and Phoenix. When the Operational Evolution Plan was first
   published in June 2001, it included provisions to add 15 new runways, but
   that was before September 11th and before the effects of the economic
   slowdown became more pronounced. Since then, a new runway has
   opened in Detroit, and a runway in Cleveland has been added to the
   Operational Evolution Plan. However, plans for a new runway in Charlotte
   and a second new runway in Dallas/Fort Worth Airports have been
   deferred. These runways are no longer in the Operational Evolution Plan.

   FAA’s Operational Evolution Plan tracks 12 runways still scheduled for
   completion in the next 10 years. During 2003, Denver, Houston, Miami,
   and Orlando Airports expect to complete runway projects. However,
   construction on several other runway projects has been delayed from
   3 months to 2 years. Given the challenges that airports are facing, it is
   incumbent on FAA to continue closely monitoring new runway projects.

e. Achieving a Balance in the Use of Airport Improvement
   Program (AIP) Grants and Passenger Facility Charges (PFC) for
   Airport Security and Capacity Projects. In the past, these funds have
   been used in large part for projects that increased airport capacity, such as
   construction of new runways. However, new security requirements present
   the possibility that AIP and PFC funds may be used increasingly for
   security initiatives. To ensure that airport improvement projects continue
   to progress so that airports will be ready to meet increased capacity
   demands when air travel rebounds, Congress and the Department will need
   to strike a balance between security and capacity in the use of these
   two funding sources.
                                                                          18



For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
  • FAA’s Fiscal Year 2003 Budget Request
  • Automated Flight Service Stations: Significant Benefits Could Be Realized
    by Consolidating AFSS Sites in Conjunction with Deployment of OASIS
  • FAA Air Traffic Services Planned Labor Distribution Reporting
  • Actions to Enhance Capacity and Reduce Delays and Cancellations
  • Compensation Issues Concerning Air Traffic Managers, Supervisors, and
    Specialists
  • Actions to Improve Performance of the National Aviation System
  • FAA’s Actions to Expand the Controller-in-Charge Program
  • Technical Support Services Contract: Better Management Oversight and
    Sound Business Practices Are Needed
  • Contract Towers: Observations on FAA’s Study of Expanding the Program
  • Staffing: Supervisory Reductions Will Require Enhancements in FAA’s
    Controller-in-Charge Program
  • Personnel Reform: Recent Actions Represent Progress but Further Effort Is
    Needed to Achieve Comprehensive Change
                                                                               19




Clamping Down on Fraud, Obtaining Better Value in
Highway and Bridge Investments, and
Reauthorizing TEA-21
Investments in highway infrastructure have a significant impact on achieving
transportation goals to increase mobility, improve safety, and promote economic
growth. TEA-21, the legislation that authorized highway investments, is
scheduled to be reauthorized
this year. A great deal of Figure 7. FHWA Historical Funding Levels
attention is also being                        ($ in billions by fiscal year)
focused on determining an
appropriate level of highway       2003                       $24.1
funding this year. Figure 7
                                   2002                               $32.3
shows historical Federal
Highway        Administration      2001                               $32.1
                                                                              Requested
(FHWA) highway funding             2000                           $27.0
                                                                              Actual
levels.   Regardless of the        1999                           $27.1
level of funding authorized,
our work reviewing 18 large        1998                      $23.2
highway and transit projects       1997                    $19.9
has identified a number of
                                        $0.0  $10.0 $20.0        $30.0 $40.0
opportunities to get more
from each dollar invested.
Better value can be obtained by:

   a. Refocusing FHWA Oversight to Ensure That Major Projects Are
      Delivered Approximately On-Time and On-Budget. Key actions in
      this regard include:

      • freeing up FHWA oversight resources by delegating more responsibility
        to the states for contract-level actions, such as approving contract
        awards, change orders, and design modifications, and by strengthening
        FHWA’s program-level involvement and stewardship.

      • improving state management practices in areas such as preparing cost
        estimates, designing projects, processing contractor claims, and
        maintaining accountability over funds.

      • using proven project management tools including project management
        plans, finance plans, reliable cost estimates, and integrated project
        schedules.
                                                                         20


   • modernizing FHWA’s staffing structure to better meet oversight needs.
     FHWA needs to move from an engineering culture to a more multi-
     disciplined workforce with the management, financial, environmental,
     program analysis, and engineering oversight skills necessary to review
     modern highway projects and programs.

b. Promoting Efforts to Prevent, Detect, and Prosecute Fraud in
   the Federal-Aid Highway Programs. In the past 3 years, the OIG has
   seen increases in fraud case work and judicial actions involving highway
   and transit projects,
                             Figure 8. Judicial Results of Infrastructure
   with       indictments
   tripling, convictions        Fraud—Convictions and Indictments
   doubling,           and
   monetary recoveries                                    26
   tripling           from                                27
   $15.8 million         to                     12                        FY 2001

                                        ns
   $43.2 million       (see        tio                                    FY 2000
                                   ic
                                 nv

   Figures 8 and 9).
                              Co



                                                               39         FY 1999
   Although our work                                              45
   does not suggest abuse                       12
                                         ts
                                       en




   on the scale that was
                                  tm
                                   c
                                di




   experienced in the                   0    10    20    30  40    50
                              In




   1950’s and 1960’s, the
   recent cases have involved some of the largest fraud schemes in the history
   of the Federal-aid highway program.

   These schemes have included bid rigging, bribery and kickbacks, false
   claims, and product substitution. We have also seen more scandals and
   fraud schemes, such as
   “front companies and            Figure 9. Judicial Results of
   pass          throughs,”    Infrastructure Fraud—Recoveries
   involving            the                  ($ in millions)
   Disadvantaged
   Business      Enterprise
   program, which is          FY 2001                             $43

   intended to promote
   minority participation     FY 2000       $7
   in     contracting    on
   DOT-funded
                              FY 1999               $16
   transportation
   infrastructure projects.
                                      $0  $10     $20     $30 $40     $50
   To strengthen DOT’s
   ability to prevent,
                                                                              21


     detect, and prosecute fraud, the Department should work with Congress and
     the states to:

     • strengthen debarment and suspension sanctions by (1) debarring
       contractors and subcontractors convicted of civil or criminal offenses
       involving fraud, (2) suspending contractors and subcontractors indicted
       for civil or criminal offenses involving fraud from bidding on new
       transportation contracts, and (3) explicitly considering contractors’ past
       performance and compliance with laws and regulations pertaining to
       fraud when awarding new contracts.

     • increase scrutiny of cost proposals, change orders, and claims from
       prime contractors and subcontractors to detect and deter fraud.

     • provide specialized training at the state level to enhance fraud
       prevention.

     • allow monetary recoveries from judgments in Federal criminal and civil
       highway/transit fraud cases to be returned to the affected state, and
       require those funds to be used exclusively for fraud prevention
       programs.


For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
  • Springfield Interchange Project
  • Improving the Delivery of Transportation Projects
  • FHWA Actions to Recover Excess Reserves from Central Artery Owner
    Controlled Insurance Program
  • Inspector General’s Remarks Before the 2nd National Conference on
    Highway Construction and Public Transportation Fraud
  • Management of Large Highway and Transit Projects
  • Report on the October 2001 Finance Plan for the Central Artery/Tunnel
    Project
  • Status of Issues Related to the Woodrow Wilson Bridge Corridor
    Reconstruction Project
  • October 2000 Finance Plan for the Central Artery/Tunnel Project Boston,
    Massachusetts
                                                                         22


• Central Artery/Ted Williams Tunnel Project Highlights Need for Effective
  Federal Oversight (June 7, 2000)
• Central Artery/Ted Williams Tunnel Project Highlights Need for Effective
  Federal Oversight (May 3, 2000)
• Current Costs and Funding of the Central Artery/Ted Williams Tunnel
  Project
• Report on the Baseline Reviews of Four Highway/Transit Mega Projects
                                                                                                                             23




Determining the Future of Intercity Passenger Rail
In the summer of 2002, Amtrak, the country’s provider of intercity passenger rail
service, lost access to the short-term credit market and threatened shutdown of its
entire system. This crisis was averted when the Department arranged a loan of
$100 million and Congress voted to provide an additional $205 million in
supplemental appropriations. Amtrak’s authorization ended in December 2002
and reauthorization will be debated in the coming months.

In the short run, Amtrak is likely to require at least $1 billion in Federal grant
support in 20033 to preserve the current system and keep open all options for the
Congress and the Administration in defining the future of passenger rail.
Otherwise, we are likely to face the same threats of system shutdown and
cessation of service as last year. To this point, insufficient alternative planning
has been done for preserving commuter and some intercity services in such a
scenario. We understand that Amtrak and the Department are working to develop
such alternatives, and these efforts need to be brought to fruition at the earliest
possible date.

In 1997, Congress established a deadline of December 2002 for Amtrak to
eliminate its need for Federal operating subsidies (Amtrak was assumed to need

Figure 10. Passenger Revenue and Ridership Growth Since 1992

                                      1600                                                    24
                                                                                              23.5
                                      1400
            Revenue ($ in millions)




                                                                                              23
                                                                                                      Ridership (millions)


                                      1200                                                    22.5
                                                                                              22
                                      1000
                                                                                              21.5
                                       800                                                    21
                                                                                              20.5
                                       600
                                                                                              20
                                       400                                                    19.5
                                                                                              19
                                       200
                                                                                              18.5
                                         0                                                    18
                                         1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002

                                                             Revenue   Ridership




3
    Unless otherwise stated, all years are fiscal years based on Amtrak’s fiscal year of October 1 to September 30, the
    same as the Federal fiscal year.
                                                                                                                                           24


continuing capital subsidies) and directed the Office of Inspector General to
reassess Amtrak’s financial performance and needs each year. Although Amtrak
has shown sustained growth in ridership and revenue over this period (see
Figure 10), it has been less successful in reducing its losses. Not only has Amtrak
not met its mandate for operating self-sufficiency, but it is farther from the self-
sufficiency goal now than it was in 1997, as shown in Figure 11.

It is evident that the current intercity passenger rail system cannot be run without
both capital and operating subsidies. Amtrak projects that, over the next 25 years,
it will need to invest about $30 billion in capital projects just to sustain the system
as currently structured. Amtrak also projects that it will need between
$550 million and $625 million each year to cover losses sustained from operating
the current system.


        Figure 11. Growth in Amtrak’s Operating and Cash Losses
                           1992 Through 2002


             $1,400
                                                                                                                         1271     1258
             $1,200
                                                                                         930         916         944
             $1,000
                                                     833     808
                                                                     763     762                                            770
                             712         731
    ($ in millions)




                      $800                                                                                                           681
                                                       578                                                 579
                                                               554     523         514         525                 561
                      $600         506         525

                      $400

                      $200

                       $0
                             1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002
                                                                     Operating Loss                  Cash Loss




Amtrak continues to operate despite the fact that its current authorization has
expired. It is now time for Congress, the Administration, Amtrak, and state and
local stakeholders to decide on a sustainable intercity passenger rail system,
determine Amtrak’s roles and responsibilities within that system, and develop a
credible funding plan that invites Federal and state government participation.

Although Amtrak has operated the Nation’s intercity passenger rail service as an
integrated system for the past 31 years, the discussion over its reauthorization will
                                                                                                25


undoubtedly consider other options. Recent proposals have included alternatives
such as breaking the system into separate entities for operating trains and
supplying infrastructure, or introducing competition by competitively bidding train
operations. While its future is being determined, Amtrak must take more
aggressive action to control expense growth (see Figure 12) and pay down long-
term debt.

 Figure 12. Growth in Amtrak’s Expenses, 1992 Through 2002
                    $4,000
                                                                                Other

                    $3,500
                                                                                Interest
                    $3,000


                    $2,500                                                      Depreciation
  ($ in millions)




                    $2,000
                                                                                Facility and
                                                                                Office Related
                    $1,500
                                                                                Fuel, Power,
                    $1,000                                                      and Utilities

                     $500                                                       Train
                                                                                Operations
                       $0
                                                                                Labor
                       92

                              93

                                   94

                                        95

                                             96

                                                  97

                                                       98

                                                            99

                                                                 00

                                                                      01

                                                                           02
                      19

                             19

                                  19

                                       19

                                            19

                                                 19

                                                      19

                                                           19

                                                                20

                                                                     20

                                                                          20




Amtrak is burdened with a heavy debt load and substantial principal and interest
payments that must be satisfied in the coming years. Between 1997 and 2002,
Amtrak’s total debt grew by $3.1 billion, from $1.7 billion to $4.8 billion,
representing an overall increase of 178 percent (see Figure 13). Amtrak faces
formidable challenges in meeting its rapidly growing debt service.
                                                                                                        26


   Figure 13. Amtrak’s Short-Term and Long-Term Debt and
                  Capital Lease Obligations
                      $5,500
                                                                                               4,833
                      $5,000                                                       4,628

                      $4,500

                      $4,000                                            3,577                   3,743
                                                                                     3,632
                      $3,500

                      $3,000
    ($ in millions)




                                                          2,449            2,798
                                              2,157
                      $2,500
                               1,737
                      $2,000                                    1,792
                                                1,536
                      $1,500
                                     1,216                                         996       1,090
                      $1,000                                            779
                                             621          657
                               521
                       $500

                         $0
                                 1997          1998         1999          2000      2001       2002

                                        Short-Term Debt          Long-Term Debt     Total




For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
  • Amtrak’s Financial Condition
  • Amtrak’s Performance, Budget, and Passenger Rail Service Issues
  • 2001 Assessment of Amtrak’s Financial Performance and Requirements
  • 2000 Assessment of Amtrak’s Financial Performance and Requirements
                                                                               27




Ensuring Highway Safety as the Southern Border Is
Opened to Mexican Motor Carriers Under NAFTA
As Mexican trucks and buses begin to operate throughout the United States as
provided in the North American Free Trade Agreement (NAFTA), the key to a
successful oversight program will be effective use of safety inspection resources
and implementation of procedures. This will require:

   a. Reevaluating Overall Resource Requirements for the
      U.S.-Mexico Border, including inspection staff and facility requirements,
      based on the amount of long-haul traffic that materializes. As of January 2,
      2003, the Federal Motor Carrier Safety Administration (FMCSA) has
      received 162 applications from Mexican carriers requesting long-haul
      authority. However, no one knows how many Mexican motor carriers will
      ultimately apply for and be granted authority to operate long-haul vehicles.
      As that traffic materializes, FMCSA will need to assess the adequacy of its
      inspection resources, including those beyond the border States.

   b. Monitoring the Safety Performance of Mexican Motor Carriers
      and Drivers. FMCSA needs to implement motor carrier and driver
      monitoring systems and ensure that all Federal and state inspectors have
      access to current,
      accurate, and timely             Figure 14. Commercial Vehicle
      information          on                 Out-of-Service Rates
      drivers, vehicles, and              44 %     4 1%
      motor carriers. Our        45%                         40%
                                                                      37%
      work has found that,       40%
                                                                              34%
      as the number of           35%

      inspections          of    30%
                                 25%
      Mexican commercial
                                 20%
      vehicles seeking to
                                 15%
      enter               the
                                 10%
      U. S.     commercial        5%
      zones increased, the        0%
      percentage           of           1997     1998      1999     2000    2001
      vehicles that had to                              Fiscal Year
      be placed out of
      service for safety
      and other violations declined (from 44 percent in FY 1997 to 34 percent in
      FY 2001 as shown in Figure 14). The out-of-service rate for commercial
                                                                              28


     vehicles inspected nationwide in the United States has been about
     24 percent since 2000.

  c. Placing Commercial Vehicles Out of Service in Any State Where
     They Operate Improperly. In August 2002, FMCSA issued a new rule
     that requires the states to place Mexican commercial vehicles out of service
     if they do not have U.S. operating authority. FMCSA needs to ensure that
     all states implement the new rule and have access to timely information to
     determine if Mexican commercial vehicles are operating improperly, such
     as whether they have been authorized to operate beyond the commercial
     zones. (Commercial zones at the U.S.-Mexico border generally extend
     from 3 to 20 miles north of U.S. border cities.)


For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
  • Implementation of Commercial Motor Carrier Safety Requirements at the
    U.S.-Mexico Border
  • Implementation of Commercial Vehicle Safety Requirements at the
    U.S.-Mexico Border
  • Motor Carrier Safety at the U.S.-Mexico Border
  • Status of Implementing the North American Free Trade Agreement’s Cross
    Border Trucking Provisions
                                                                                        29




Strengthening Computer Security and Investment
Controls for DOT’s Multi-Billion Dollar Information
Technology Investment
In support of the President’s Management Agenda to better and more fully use
information technology (IT) in providing services to the public, DOT needs to
strengthen computer security and IT investment controls on a Department-wide
basis. This must be done with a view toward cost-effective system acquisitions
and reducing system vulnerabilities to cyber attacks. DOT is responsible for one
of the largest IT investment portfolios among civilian agencies. Excluding TSA
and Coast Guard, DOT has an annual IT budget around $2.5 billion and invests
2 to 3 percent of its IT budget in computer security, as shown in Figure 15.

  Figure 15. DOT Computer Security Funding as a Percentage
              of Total IT Investment (in millions)


                       $3,000
                       $2,500
                       $2,000
                                                                    Total IT Funding
                       $1,500
                       $1,000                                       Computer Security
                                         2%        2%               Funding
                         $500                                  3%

                         $-
                                    02        03        04
                                   Fiscal Year
                          (Source: Exhibit 53--IT Portfolio)

DOT reported its information security program as a material internal control
weakness under the Federal Managers’ Financial Integrity Act last year, and the
Congress recently gave DOT’s computer security an “F.” In the past year, there
have been some noteworthy improvements such as adding intrusion detection
systems and more sophisticated firewall security. Still, our work shows that
further actions remain necessary, and DOT systems remain at risk. For example,
hundreds of vulnerabilities were found on DOT web sites during FY 2002, as
shown in Figure 16. These vulnerabilities were rated as high, medium, and low.
They provided opportunities for attackers to gain unauthorized access to DOT
computers. High vulnerabilities may provide an attacker with immediate access
into a computer system by executing remote commands. Medium and low
                                                                              30


vulnerabilities may provide an attacker with useful information, such as password
files, to compromise DOT computers. DOT immediately took corrective actions
on the vulnerabilities we found. Also, starting in FY 2003, DOT is using a
commercial scanning tool to check all web sites for potential vulnerabilities.

Figure 16. Vulnerabilities Found on DOT Web Sites in FY 2002



                             High, 79
                                                      Low, 91




                                        Medium, 283




During the coming year, DOT should strengthen this important aspect of its
infrastructure by:

   a. Appointing and Empowering a Chief Information Officer (CIO).
      This position, which has been vacant for the last 2 years in spite of the
      Department’s recruitment efforts, must be filled to provide strong
      leadership in this vital area. In addition, DOT needs to provide the CIO
      with the authority to carry out the intended mission and to hold the
      Operating Administrations accountable for following the CIO’s guidance.
      In the past, the Operating Administrations have not effectively
      implemented the guidance and have not been held accountable for doing so.

   b. Securing Network Entry Points and Infrastructure-Critical
      Assets. With extensive reliance on computers for critical, high-visibility
      functions such as controlling air traffic, DOT must properly control access
      to its own computer systems, and these systems must be adequately secured
      from intruders. A simple and effective management control is to
      periodically perform reviews to certify that major computer systems are
      adequately secured. However, DOT has made limited progress by having
      completed such reviews on only 112 of 528 mission-critical systems during
      FYs 2001 and 2002. DOT has to double the number of system certification
                                                                                                                         31


   reviews in the upcoming years in order to meet the Department’s goal of
   having all mission-critical systems certified for adequate security by
   December 2005, as shown in Figure 17.


         Figure 17. Certification and Accreditation of
   Mission-Critical Systems (Excluding TSA & Coast Guard)
                                                  160
             Number of Mission Critical Systems
                                                  140

                                                  120

                                                  100
                                                                                                             Completed
                                                   80
                                                                              152                            Planned
                                                                                         132        132
                                                   60

                                                   40
                                                                     66
                                                   20      46

                                                    0
                                                        September September September September   December
                                                          2001      2002      2003      2004        2005
                                                                              Date



c. Increasing Departmental Oversight of IT Investments Through
   the Capital Planning Process. While DOT is responsible for one of
   the largest IT investments among civilian agencies, the departmental CIO
   has little oversight over these investments.       Over 90 percent of
   IT investments are controlled by the Operating Administrations. In 2002,
   DOT issued new IT capital planning guidance that established a DOT
   Investment Review Board chaired by the Deputy Secretary with assistance
   from the CIO and other departmental senior officials to review major
   IT investment decisions.

   Establishing the Investment Review Board is a step in the right direction to
   implement this cultural change in DOT. However, to ensure that the Board
   could influence major IT investment decisions, DOT needs to take other
   initiatives such as obtaining explicit senior management support from the
   Operating Administrations, issuing clear guidance to identify investments
   for review, and developing a system to implement decisions issued by the
   Board.
                                                                           32



For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
  • Computer Security Challenges Within the Department of Transportation
  • DOT Web Security
  • DOT Information Security Program
  • Computer Security and Operational Stability of FAA Labor Distribution
    (Cru-X) System
  • DOT Consolidated Financial Statements for Fiscal Years 2001 and 2000
  • Replacement of FAA Telecommunications Systems
  • DOT Web Privacy
                                                                                     33




9   Continuing to Improve Transportation Security
    TSA efforts for 2002 mostly focused on addressing aviation security and meeting
    deadlines established in the Aviation and Transportation Security Act. TSA met
    the unprecedented challenge to hire and train a federalized workforce to screen all
    passengers and their carry-on baggage by November 19, 2002, and, for the most
    part, to deploy the necessary equipment and federalized workforce to meet the
    December 31, 2002 deadline to screen all checked baggage. At the same time,
    TSA significantly expanded the Federal Air Marshals program with more flights
    being guarded now than any time in history.

    However, TSA’s work is not done. Until TSA is transferred to the Department of
    Homeland Security in March 2003, DOT must continue to take the lead for the
    Government’s increased aviation security responsibilities, including completing
    deployment of explosives detection equipment to the remaining airports where
    alternate screening methods are employed, and developing plans for expanding
    security in all modes of transportation. After that, the primary responsibility will
    move with TSA to the new Department of Homeland Security. To solidify
    progress made thus far, TSA needs to:

       a. Train and Effectively Manage Airport Security Personnel. Since
          January 2002, TSA has hired and trained nearly 62,000 screeners
          responsible for screening passengers and their checked and carry-on
          baggage. The next challenge is ensuring that this large and in some cases
          inexperienced workforce retains and expands its skills and quickly becomes
          a world-class security force. However, before it begins expanding the
          screener skill set, TSA must first execute a screener performance
          measurement system in order to know where and how to best concentrate
          its training efforts.

          TSA could face a significant challenge in training the screening workforce,
          as it balances the training needed to expand the skills of the current
          workforce with the training needed for new hires. Also, more than
          45 percent of current TSA screeners were hired as “temporary” employees.
          TSA will either have to transition this staff into more permanent positions
          or replace them with new employees with additional training needs. In
          terms of overall numbers, Figure 18 depicts the composition of the
          TSA workforce.
                                                                                                           34


            Figure 18. TSA Workforce Composition


                            Other Positions*                   Human Resources
                                                                          Misc.
                                                                       Administration
                                  18 Other Job
                                   Categories
                                                                            Clerical Support


                                                                            Legal
                                                                        Training
                                                                     I.T.
                                      Program Analyst                                    *Source: TSA payroll
                                                                      Criminal           data as of 12/28/02.
                                                 Engineering
                                                                    Investigators
                                               Financial
                                                                  Upper
                                             Administration
                                                                Management




                    Other              TSA Total Workforce
                    3,944                   65,918**

                               Screeners                           **Source: TSA Human Resources
                                 61,974                            as of 12/31/02.




                                                                            Screeners


                                                                              Temporary
                              Permanent                                         28,037
                                33,937




b. Effectively Deploy Advanced Security Technologies at Airports
   Nationwide. Although TSA made every effort to meet the December 31st
   deadline to screen all checked baggage using explosives detection
   equipment, deployment of the equipment was not completed at all the
   Nation’s commercial airports. At airports not completed, TSA exercises its
   authority to implement alternate screening methods. However, these
                                                                             35


   alternate methods are only short-term, temporary solutions for screening
   checked baggage as TSA continues on with its deployment efforts.

   To meet the deadline, an estimated 1,100 explosives detection systems
   (EDS) and 6,000 explosives trace detection machines are being deployed at
   airports nationwide. TSA executed a two-phase deployment approach. The
   initial phase is an interim solution for screening all checked baggage where
   some airports will use EDS, with trace machines used only for resolving
   alarms; others will use trace machines exclusively; and some will use a mix
   of EDS and trace machines to screen checked baggage.

   In phase two, at a future date not yet established, TSA will move the
   EDS machines into baggage systems at the largest airports. It is unclear
   how much this will cost and who will have to pay for it. TSA needs to
   ensure that equipment is properly integrated into airport baggage systems,
   and that it can be relied on to perform as expected.

c. Control Costs for Security Spending. TSA faces significant
   challenges in providing effective security in a way that avoids waste of
   taxpayer dollars. TSA initially focused its resources on hiring and training
   a screening workforce and deploying sufficient EDS. This was an
   enormous undertaking requiring billions of dollars by an organization
   building from the ground up with no management infrastructure in place.
   TSA has made interim adjustments along the way to compensate for this
   lack of infrastructure, such as contracting with the Defense Contract
   Management Agency to administer the airport screener contracts. Now,
   TSA faces the challenge of building the infrastructure to monitor and
   control costs, especially given the large number and dollar volume of
   contracts it is managing, about $8.5 billion at the end of calendar year 2002
   and continuing to grow. There has also been growth on individual
   contracts. An example of a significant cost growth is the contract with
   NCS Pearson for hiring of screeners and human resources support from
   February to December 2002. The initial contract cost of $104 million grew
   to an estimated $700 million.

   TSA has requested $5.3 billion for FY 2003, which consists of an original
   budget request of $4.8 billion, plus a budget amendment request of
   $546 million. These requirements are against projected revenues from the
   security fee of $1.7 billion. Clearly, TSA will require a large infusion of
   cash from the General Fund at a time when the General Fund is already
   strained to pay for vastly increased fiscal needs throughout the Federal
   Government. Within this context, the need for TSA to build cost control
   mechanisms into its infrastructure is critical. Since TSA is expected to
   move to the Department of Homeland Security by March 1, 2003, controls
                                                                               36


     are important now in terms of defining the scope of its missions,
     establishing employee compensation, controlling salaries, overseeing
     contracts, and utilizing space at airports. Once TSA moves to the
     Department of Homeland Security, it will have the opportunity to build
     upon existing infrastructure from other Operating Administrations within
     the new Department.

     Over the last few months, TSA has recognized the need for better contract
     administration and has implemented increased controls over some key
     contracts. In its 2002 Federal Managers’ Financial Integrity Act report to
     Congress and the President, DOT reported a material weakness in TSA’s
     administration of airport screener contracts. As we recommended, TSA
     hired the Defense Contract Management Agency to administer the airport
     screener contracts and also hired the Defense Contract Audit Agency to
     audit costs of the airport screener contracts, the NCS Pearson contract, and
     other major contracts.

  d. Strengthen Security in Transit, Rail, Motor Carrier, and Ships.
     Although much of the emphasis thus far has been on aviation security, TSA
     is also responsible for security for the Nation’s 3.9 million miles of public
     roads, 2.2 million miles of oil and natural gas pipelines, 120,000 miles of
     major railroads, 5,000 public use airports, 550 transit operators, and
     350 ports on the coasts and inland waterways. To strengthen the security of
     the transportation system, TSA needs to develop meaningful risk
     assessments that recognize known as well as evolving threat scenarios and
     target limited resources to the areas of greatest vulnerability, as well as
     develop an integrated strategic plan to prioritize funding needs. DOT and
     TSA need to finalize Memorandums of Agreement between TSA and DOT
     Operating Administrations outlining their respective security roles and
     responsibilities.


For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
  • Progress in Implementing Provisions of the Aviation and Transportation
    Security Act
  • Key Challenges Facing the Transportation Security Administration
  • Key Budget Issues Facing the Transportation Security Administration
  • Key Issues Concerning Implementation of the Aviation and Transportation
    Security Act
                                                                                      37




10   Meeting Coast Guard’s Safety and Security Missions
     In the aftermath of September 11th, homeland security was elevated to be
     commensurate with Coast Guard’s highest operational priority, its search and
     rescue mission. In the coming year, the Coast Guard must decide how it can best
     meet its continuing missions. At the same time, the Coast Guard is also
     embarking on a capital acquisition—the Deepwater Capability Replacement
     Project—that is monumental in scope and central to accomplishing all of its
     missions. As this acquisition was planned prior to September 11th, the Coast
     Guard needs to update the requirements for this project in light of its enhanced
     security responsibilities, and because it could potentially impact other Coast Guard
     missions and other planned capital investments. In the coming year, Coast Guard
     needs to:

        a. Find the Correct Balance Between the Newly Elevated Security
           Mission, the Search and Rescue Mission, and Its Other
           Traditional Core Missions. Immediately after the September 11th
           terrorist attacks, Coast Guard redeployed 58 percent of its resources to the
           security of the Nation’s ports, waterways, and coastal areas. While the
           immediate redeployment demonstrated Coast Guard’s flexibility and multi-
           mission capabilities in meeting urgent national priorities, it diverted
           substantial resources from other traditional core missions such as marine
           environmental protection, fisheries enforcement, aids to navigation, and
           illegal migrant interdiction. Coast Guard has since redistributed its
           resources to provide a better balance among its various missions and has
           indicated that in FY 2003 it will maintain this balance by devoting
           27 percent of its resources to its security mission. The Homeland Security
           Act requires Coast Guard to ensure there are no substantial reductions in its
           missions or capability to perform them.

        b. Stabilize Requirements for the Deepwater System Procurement
           and Develop a Realistic and Affordable Capital Investment Plan.
           The Coast Guard is implementing the largest acquisition project in its
           history—the Integrated Deepwater System Project—to replace or
           modernize its deepwater ships and aircraft used in homeland security,
           search and rescue, drug interdiction, the interception of illegal immigrants,
           fisheries regulation, defense operations, and other at-sea operations.

           Complicating this procurement is the fact that the $17 billion Deepwater
           system was planned prior to September 11th. However, significant changes
           in Coast Guard’s mission requirements since that time will require Coast
           Guard to reevaluate certain aspects of the Deepwater project. For example,
                                                                                               38


Coast Guard is considering arming more of its helicopters and adding more
secure information handling capabilities. Despite this, no changes were
made to project requirements before the contract was awarded in June
2002. Coast Guard is also exploring an acceleration of the Deepwater
project in response to the Homeland Security Act that could increase annual
capital funding requirements. It is unclear the extent to which the Coast
Guard’s enhanced security role will affect the procurement’s timetable and
budget requirements.

The Coast Guard needs to update and stabilize its requirements for the
Deepwater project. This is especially important because the project’s cost
growth could consume more funding. Even at the current annual level of
$500 million, Deepwater consumes the vast majority of the Coast Guard’s
projected capital budget. Coast Guard must also fund the modernization of
the National Distress and Response System (NDS—the 911 system for
mariners in distress); replacement of Coast Guard’s utility boat and buoy
tender fleet; preservation of Great Lakes and polar ice breaking capability;
modernization of aids to navigation; and rehabilitation of aged buildings,
piers, and other shore facilities (see Figure 19).


            Figure 19. Five Year Capital Investment Plan
                        (millions of dollars, budget year dollars)
        Project              FY 2003        FY 2004       FY 2005        FY 2006         FY 2007
 Deepwater                   $500           $550          $562           $574             $606
 NDS                          $90           $134          $137            $74                $0
 Other*                      $146            $68           $70           $138             $198
 Total                       $736           $752          $769           $786             $804

 * Such as rehabilitating shore facilities and replacing small boats used for search and rescue.



To preserve the overall integrity of its capital plan, the Coast Guard needs
to make some tough decisions now before further proceeding with the
Deepwater procurement.
                                                                                 39


For further information, the following reports can be seen on the
management challenges page of the OIG web site, at
http://www.oig.dot.gov/challenges:
   • U.S. Coast Guard Budget and Management Issues (March 19, 2002)
   • U.S. Coast Guard Budget and Management Issues (February 14, 2002)
   • Planning Process for the National Distress and Response System
     Modernization Program
   • Coast Guard Small Boat Station Search and Rescue Program
   • U.S. Coast Guard Fiscal Year 2002 Budget Request for Modernization




In addition to being published as an OIG report, this year’s report will, by law, be
incorporated into DOT’s Accountability Report, which will be delivered to
Congress and the Office of Management and Budget in January 2003 and is
designed to provide a comprehensive overview of the Department’s performance
and financial status.

If you have any questions concerning this report, please call me at (202) 366-1959;
Todd J. Zinser, my Deputy, at (202) 366-6767; or Alexis M. Stefani, Principal
Assistant Inspector General for Auditing and Evaluation, at (202) 366-1992.

                                         #
                                                                                               40


Exhibit. Comparison of 2003 and 2002 OIG Top Management Challenges Lists

                 Items in 2003 List                           Related Items in 2002 list
Accomplishing DOT’s Core Missions of Safety      None
and Mobility During and After an Effective
Transition of TSA and Coast Guard
Reducing Fatalities and      Injuries on Our     Implementing TREAD Act Provisions to Improve
Highways, Emphasizing        Seat Belt Law       Detection of Motor Vehicle Safety Defects and
Enforcement                                      Identifying Strategies to Achieve Goals for
                                                 Increasing Seat Belt Use
Reducing the Risk of Aviation Accidents Due to   Following Through on Aviation Safety, Capacity,
Operational Errors and Runway Incursions         and Modernization Efforts in a Post 9/11 World
Reversing FAA’s Spiraling Operating Costs,
Improving Aviation System Capacity, and
Reauthorizing AIR-21
None                                             Implementing the Airline Stabilization Act and
                                                 Addressing Changes in the Competitive Structure
                                                 of Air Services, Including Service to Small and
                                                 Medium-Sized Communities
Clamping Down on Fraud, Obtaining Better         Substantially Strengthening Oversight of Federal
Value in Highway and Bridge Investments, and     Highway and Transit Funds to Ensure Funds Are
Reauthorizing TEA-21                             Used Effectively and Efficiently and Are
                                                 Protected From Fraud, Waste, and Abuse
Determining the Future of Intercity Passenger    Deciding the Appropriate Structure and Funding
Rail                                             of Intercity Passenger Rail Service, Including the
                                                 Future of Amtrak
Ensuring Highway Safety as the Southern Border   Ensuring Motor Carrier Safety at the
Is Opened to Mexican Motor Carriers Under        U.S.-Mexico Border and Improving Oversight of
NAFTA                                            the Commercial Drivers License Program
Strengthening Computer Security and Investment   Addressing     Department-wide     Management
Controls for DOT’s Multi-Billion Dollar          Practices and Managing Program Performance
Information Technology Investment                (Presidential Management Initiatives; Computer
                                                 Security; Contract Oversight; New Financial
                                                 Systems; Government Performance and Results
                                                 Act; and the Transportation Administrative
                                                 Service Center)
Continuing to Improve Transportation Security    Strengthening Transportation Security and
                                                 Establishing the Transportation Security Agency
Meeting Coast Guard’s Safety and Security        Stabilizing Coast Guard’s Missions and Budget
Missions                                         Requirements in Light of Post 9/11 Priorities
None                                             Improving      Performance      in      Maritime
                                                 Administration’s Title XI      Loan    and Ship
                                                 Scrapping Programs
